U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC

                 RELEASE



        NATIONAL INSTITUTE OF
   STANDARDS AND TECHNOLOGY
          CRADA with the Coblentz Society
           Should Receive Greater Scrutiny
     Final Inspection Report No. IPE-13200/February 2001




             Office of Inspections and Program Evaluations

February 23, 2001


MEMORANDUM FOR:                 Dr. Karen H. Brown
                                Acting Director
                                National Institute of Standards and Technology


FROM:                           Johnnie E. Frazier

SUBJECT:                        Final Inspection Report: CRADA with the Coblentz Society Should
                                Receive Greater Scrutiny (IPE-13200)

As a follow up to our January 5, 2001 draft report, attached is our final report examining the
cooperative research and development agreement (CRADA) between the National Institute of
Standards and Technology and the Coblentz Society. The report includes comments from your written
response, which is included in its entirety as an appendix to the report. We are pleased that you and
your staff have agreed with most of our recommendations. However, we are concerned that NIST has
not made a commitment to develop policies and procedures for evaluating whether it should undertake
a project that may compete with the private sector or for submitting proposed database projects to a
peer review. Please provide your action plan addressing the recommendations in our report within 60
calendar days.

We thank your staff for the assistance and courtesies extended to us during our evaluation. If you have
any questions about our report or the requested action plan, please contact me at (202) 482-4661, or
Jill Gross, Assistant Inspector General for Inspections and Program Evaluations, at (202) 482-2754.

Attachment

cc:	    Dr. Hratch G. Semerjian, Director, Chemical Science and Technology Laboratory
        Dr. Richard F. Kayser, Director, Technology Services
        Michael R. Rubin, Deputy Chief Counsel
        Dr. John R. Rumble, Chief, Standard Reference Data Program
U.S. Department of Commerce                                                                                     Final Report IPE-13200

Office of Inspector General                                                                                              February 2001




                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 
 i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


I.	       Competition with Private Sector Firms Is Not Prohibited, but the Project Must 

          Be Scrutinized . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          A.	    NIST’s legislative mandate does not specifically prohibit the creation of 

                 databases that might compete with the private sector . . . . . . . . . . . . . . . . . . . . . . . . . 6

          B.	    Because the NIST/Coblentz Society database will compete with 

                 private sector databases, the project should be thoroughly scrutinized 

                 before proceeding . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          C.	    Substantial future additions to the database, and future database projects, 

                 should be well publicized and analyzed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


II. 	     A CRADA Was Not the Appropriate Instrument for the NIST/Coblentz 

          Society Project . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDIX: NIST Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

U.S. Department of Commerce                                                         Final Report IPE-13200

Office of Inspector General                                                                  February 2001




                                      EXECUTIVE SUMMARY

In November 1994, the National Institute of Standards and Technology entered into a cooperative
research and development agreement (CRADA) with the Coblentz Society, a nonprofit professional
organization. The purpose of the CRADA, which is to run for a period of 10 years, was to establish a
joint NIST/Coblentz Society infrared spectral database. Infrared spectra are often regarded as the
"fingerprint" of a specific chemical substance and are used in a wide range of applications, including the
identification of chemical substances and the determination of their amounts.

To develop the database, approximately 10,000 spectra in paper format owned by the Coblentz
Society were provided to NIST for scanning and conversion into an electronic format. These spectra
are to be combined with approximately 10,000 infrared spectra in NIST’s possession to form the
database that will be sold by NIST to the public. NIST plans to make the database available in early
spring 2001. Over time, NIST and the Coblentz Society intend to increase the size of the collection by
soliciting contributions of spectra from the many laboratories–private, government, and
academic–where infrared spectra are measured.

The House Committee on Science received a complaint from a private sector firm in February 2000
alleging that the infrared spectral database to be created under NIST’s CRADA with the Coblentz
Society would unfairly compete with one sold by the firm. After some correspondence between the
Committee and NIST regarding the complaint, in May 2000, the Committee’s Subcommittee on
Technology referred the matter to our office.

After reviewing the complaint, our office decided to perform an inspection of NIST’s CRADA with the
Coblentz Society. The objectives of our inspection were to determine whether (1) NIST is unfairly
competing with the private sector by entering into a CRADA for the purpose of producing and
publishing a spectral database, and (2) the CRADA is consistent with the law (15 U.S.C. § 3710a) and
an appropriate instrument for this project. A summary of our specific findings follows:

Competition with Private Sector Firms Is Not Prohibited, but the Project Must Be Scrutinized.
 Two legislative mandates, the Standard Reference Data Act and NIST’s organic legislation, authorize
NIST to provide high-quality standard reference data to the scientific community. While neither
mandate specifically prohibits the creation of databases that might compete with the private sector, both
contain terms that could be interpreted as discouraging NIST from duplicating reference data available
elsewhere.




                                                     i
U.S. Department of Commerce                                                        Final Report IPE-13200

Office of Inspector General                                                                 February 2001




Our review concluded that the NIST/Coblentz Society database will compete with the databases of
private sector vendors because both NIST, in its capacity as a database vendor, and the private sector
database firms meet most of the same customer needs for infrared spectral databases. In addition,
NIST did not perform a sufficient analysis of the merits or drawbacks of the project before proceeding.
Specifically, we are concerned that NIST did not adequately assess the need for the database, given
other NIST priorities, and whether it would duplicate or compete with data that was already available
from other sources. Thus, before any decision is made to make the NIST/Coblentz Society database
available to the public, we recommend that NIST perform the planning and analysis that it should have
done prior to entering into the CRADA. In addition, because it is NIST and the Coblentz Society’s
intention to add spectra to the database in the future, we believe that NIST should develop policies and
procedures to ensure that any substantial additions are sufficiently publicized and analyzed before
proceeding. NIST should also submit such a project expansion, as well as any future database projects
of this nature, to a peer review (see page 6).

A CRADA Was Not the Appropriate Instrument for the NIST/Coblentz Society Project. The
key criterion for entering into a CRADA was not met in the case of the CRADA between NIST and
the Coblentz Society. CRADAs are generally designed to allow federal laboratories to work with
nonfederal entities to transfer technologies for future commercial application. However, under this
CRADA, no technology transfer is taking place. We believe that for this specific project another type
of legal agreement would have been preferable. It is a good management practice to use the most
appropriate instrument for any particular project in order to adequately protect all parties and avoid
unnecessary complexities. For future database collaborations between NIST and outside entities,
NIST should carefully assess its options to ensure that it selects the most appropriate legal instrument
for the project (see page 18).

On page 19, we offer recommendations to the NIST Director to address the concerns raised in this
report.



In responding to our draft report, the Acting NIST Director stated that the agency is in agreement with
our findings and recommendations. We generally agree with NIST’s proposed corrective actions.
However, as discussed on page 16, we are concerned that NIST has not agreed to put in place the
necessary policies and procedures to ensure that future additions to the NIST/Coblentz Society
database, as well as any future database projects of this nature, are sufficiently evaluated before
proceeding. In particular, we want to ensure that before it decides to proceed with a database project,
NIST will, (1) solicit comments from interested parties, such as cognizant scientists and database
vendors, and consider those comments when deciding whether to proceed, (2) analyze the need for the

                                                    ii
U.S. Department of Commerce                                                       Final Report IPE-13200

Office of Inspector General                                                                February 2001




additions and/or a new database in the scientific community, (3) assess the impact of the proposed
project on the private sector firms, particularly with regard to competition, and (4) submit proposed
projects to a peer review. We are requesting that NIST address this issue in its action plan.




                                                   iii
U.S. Department of Commerce                                                         Final Report IPE-13200

Office of Inspector General                                                                  February 2001



                                          INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of Inspector
General conducted an inspection of the cooperative research and development agreement (CRADA)
between the National Institute of Standards and Technology and the Coblentz Society. The inspection
was conducted in accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency. Fieldwork was performed during the period from May through
October 2000.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. Inspections are also done to
detect and prevent fraud, waste, and abuse, and to encourage effective, efficient, and economical
operations. By asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection and avoid their recurrence
in the future. Inspections may also highlight effective programs or operations, particularly if they may be
useful or adaptable for agency managers or program operations elsewhere.

                         OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this inspection were to determine whether (1) NIST is unfairly competing with the
private sector by entering into a CRADA with the Coblentz Society for the purpose of producing and
publishing a spectral database, and (2) the CRADA is consistent with the law (15 U.S.C. § 3710a) and
an appropriate instrument for this project. The scope of this inspection was limited to this specific
CRADA, although, for comparison purposes, we also reviewed how NIST creates, markets, and sells
other spectral databases.

Our review methodology included interviews with NIST personnel in the Chemical Science and
Technology Laboratory, the Standards Reference Data Program, the Office of Technology
Partnerships, and the Office of the Deputy Chief Counsel. We also conducted interviews with
Coblentz Society personnel, representatives of private sector companies that sell spectral databases,
and a number of infrared spectroscopists who are familiar with or work with spectral databases.
Technical assistance was provided by staff from the National Science Foundation’s Office of Inspector
General. Finally, we observed the process NIST is using to digitize the Coblentz Society’s paper
spectra. At the conclusion of the review, we discussed our findings with the Director, Chemical
Science and Technology Laboratory; the Deputy Chief Counsel; the Director, Technology Services;
and the Chief, Standard Reference Data Program.




                                                     1

U.S. Department of Commerce                                                        Final Report IPE-13200

Office of Inspector General                                                                 February 2001



                                           BACKGROUND

In February 2000, the House Committee on Science received a complaint from a private sector firm
alleging that the infrared spectral database to be created under NIST’s CRADA with the Coblentz
Society would unfairly compete with one sold by the firm. After some correspondence between the
Committee and NIST regarding the complaint, in May 2000, the Committee’s Subcommittee on
Technology referred the matter to our office. OIG officials reviewed the complaint and, in late May,
decided to perform a review of the allegations.

CRADAs were authorized in 1986 under the Federal Technology Transfer Act
(15 U.S.C. §§ 3710a-3710d) to promote technology transfer and the commercialization of federally
developed technology by providing the private sector with access to the research and development
being done by federal laboratories. CRADAs allow a federal laboratory to agree to grant, in advance,
patent licenses, assignments, or options to the CRADA partner for any invention made under the
CRADA. In addition, CRADAs provide for the protection of proprietary information and the sharing
of any royalties generated.

Infrared spectroscopy is the study of the interaction of light and matter in the infrared region of light.
Infrared light, which occurs at lower frequencies than visible light, cannot be observed with the naked
eye, and its measurement requires the use of an instrument called an infrared spectrometer. The
infrared spectrometer uses infrared light to produce an infrared spectrum, which expresses the degree
of interaction between matter and light, in terms of intensity, at a specific frequency over a range of
frequencies. Infrared spectra are often regarded as the "fingerprint" of a specific chemical substance.
Infrared spectroscopy has applications ranging from fundamental scientific studies of molecular structure
to quality control of commercial materials. It has been applied to a range of problems dealing with both
the identification and measurement or composition of chemical substances, such as in forensic or crime
laboratories. Infrared spectroscopy is also used in education to demonstrate fundamental properties of
matter.

The Coblentz Society is a nonprofit organization founded in 1954 to foster the understanding and
application of infrared spectroscopy. The idea of NIST working with the Coblentz Society to make the
Society’s infrared spectra more usable in the digital age was first discussed at a 1982 NIST workshop
on standard reference data. However, it was not until November 1994 that a CRADA between NIST
and the Society was signed. The CRADA is to run for a period of 10 years. The project to be
completed under the CRADA is to establish a joint NIST/Coblentz Society infrared spectral database.
The intention of the project is to combine approximately 10,000 gas phase spectra in NIST’s




                                                    2

U.S. Department of Commerce                                                                 Final Report IPE-13200

Office of Inspector General                                                                          February 2001



possession1 with 10,000 condensed phase spectra owned by the Coblentz Society. The joint database
would administratively be controlled by NIST.

The original intent was that, over time, the two parties would increase the number of spectra in the
collection and retain the high quality of the database. To that end, the Coblentz Society was to solicit
contributions of spectra from the many laboratories–private, government, and academic–where infrared
spectra are measured. Together, NIST and the Society would arrange for the evaluation of all
contributed spectra and approve, for inclusion in the database, those which were of high quality and for
which there was adequate identifying information.

The 10,000 condensed phase infrared spectra to be contributed to the project by the Coblentz Society
are in paper format (see Figure 1) and were all measured using older infrared spectrometers during the
1950s and early 1960s.2 The spectra were mostly donated to the Coblentz Society by chemical
laboratories and instrument companies for the purpose of fostering the application of infrared
spectroscopy and making good reference spectra available for public use. The Coblentz Society’s
collection of infrared spectra is widely recognized for its quality, particularly in terms of the authenticity
and purity of the samples used to generate the spectra and the evaluation of the spectra by experienced
infrared spectroscopists to ensure their accuracy.




         1
             5,228 of these spectra are currently sold by NIST as the “NIST/EPA Gas-Phase Infrared Database.”

         2
          The older instruments were prism spectrometers and grating spectrometers. The standard and preferred
instrument for measuring infrared spectra today is a Fourier transform infrared spectrometer, also called an FT-IR
spectrometer.

                                                           3
U.S. Department of Commerce                                                        Final Report IPE-13200

Office of Inspector General                                                                 February 2001





Figure 2: Example of a Coblentz Society Paper Infrared Spectra




The Coblentz Society has been selling its collection of paper spectra for many years. At least four
private sector firms also sell infrared spectral databases, but in a digital format. The databases offered
by these firms almost exclusively contain FT-IR spectra. The FT-IR spectra are in electronic format
and are of higher resolution and clarity than spectra measured on the older instruments. The databases
sold by the private sector firms are used mostly for spectral searching, which involves identifying an
unknown compound by comparing it against the numerous spectra contained in the database. Because
the Coblentz Society spectra are in paper format, they are being used less frequently since the
development of FT-IR spectrometers and spectral searching capabilities. Therefore, a large part of the


                                                    4

U.S. Department of Commerce                                                       Final Report IPE-13200

Office of Inspector General                                                                February 2001



effort under the CRADA would be to digitize the paper spectra, using an optical scanner, to make the
Coblentz Society’s spectra usable for spectral searching.

Even though the CRADA was signed in 1994, little activity occurred on this project until 1997. In
August 1997, NIST contracted with a research scientist to evaluate some infrared spectra already in
NIST’s possession, as well as to digitize the approximately 10,000 paper spectra contributed to the
project by the Coblentz Society. The contract runs for four years and has a maximum value of
$396,085. Through October 2000, the contractor had been paid $257,956 for his work on this
project.

All of the Coblentz Society spectra have been digitized. The contractor, NIST staff, and Coblentz
Society staff are currently evaluating the spectra for accuracy and adding textual attributes to the
electronic files. NIST anticipates that this technical work will take about four more months and should
be completed by late winter 2001. During this time, NIST will discuss with Coblentz Society
representatives the possibilities for disseminating the database. Any dissemination arrangement will be
covered by a written agreement reviewed and approved by all appropriate NIST and departmental
authorities. Current plans call for NIST to begin selling the database in early spring 2001.




                                                   5
U.S. Department of Commerce                                                        Final Report IPE-13200

Office of Inspector General                                                                 February 2001



                              OBSERVATIONS AND CONCLUSIONS


I.	     Competition with Private Sector Firms Is Not Prohibited, but the Project Must Be
        Scrutinized

The primary issue that our office was asked to review was whether NIST was unfairly competing with
the private sector by creating an infrared spectral database under a CRADA with the Coblentz Society.
Two legislative mandates provide NIST with direction in its efforts to provide high-quality standard
reference data to the scientific community—the Standard Reference Data Act and NIST’s organic
legislation. While neither mandate specifically prohibits the creation of databases that might compete
with the private sector, both contain terms that are open to interpretation. Given the lack of clarity and
multiple purposes of the legislative mandates, there are wide differences of opinion among the
supporters and opponents of the project, particularly with regard to the pros and cons of digitizing the
Coblentz Society spectra, the level of overlap between the NIST/Coblentz Society database and
commercial databases, and the format of the database.

Based on our review, we conclude that the NIST/Coblentz Society database will compete with the
databases of the private sector vendors. As a result, we believe that before any decision is made to
make the NIST/Coblentz Society database available to the public, NIST should perform the planning
and analysis that it should have done before it entered into the CRADA. Moreover, NIST’s and the
Coblentz Society’s intention is to add spectra, over time, to their database. However, as the database
grows, competition between NIST and the private sector database firms will also increase. Therefore,
NIST should scrutinize and seek public comment on any planned additions to the database before
proceeding. In addition, expansions to this project, as well as any future database projects of this
nature, should be subjected to a peer review to ensure that the projects are both needed by the
scientific community and will not unfairly compete with private sector databases already on the market.


A.	     NIST’s legislative mandate does not specifically prohibit the creation of databases
        that might compete with the private sector

Representatives of four private sector firms that compete in the infrared spectral database market
complained to either the House Committee on Science or our office about the unfair competition that
would be created by the NIST/Coblentz Society CRADA. In many discussions and in
correspondence with our office, representatives of all four firms registered strong opposition to the
database being created under the NIST/Coblentz Society CRADA. The firms’ key complaint was that
it is inappropriate for NIST to duplicate what is already commercially available.

                                                    6

U.S. Department of Commerce                                                       Final Report IPE-13200

Office of Inspector General                                                                February 2001



The Standard Reference Data Act states that NIST should, to the maximum extent practical, avoid
duplication in its efforts to collect, evaluate, publish, and disseminate standard reference data. In
addition, NIST’s organic legislation states that the agency should only compile and disseminate data
that is not available with sufficient accuracy elsewhere. Thus, while neither mandate specifically
prohibits the creation of databases that might compete with the private sector, they discourage NIST
from duplicating reference data that is available elsewhere.

NIST is authorized under the Standard Reference Data Act (15 U.S.C. § 290b) to “provide or arrange
for the collection, critical evaluation, publication, and dissemination of standard reference data.”
However, in carrying out this mandate, NIST should, to the maximum extent practical, “utilize the
reference data services and facilities of other agencies and instrumentalities of the Federal Government
and of State and local governments, persons, firms, institutions and associations, with their consent and
in such a manner as to avoid duplication of those services and facilities.”

NIST is also authorized under its organic legislation (15 U.S.C. § 272) to take all actions necessary
and appropriate to “determine, compile, evaluate, and disseminate physical constants and the properties
and performance of conventional and advanced materials when they are important to science,
engineering, manufacturing, education, commerce, and industry and are not available with sufficient
accuracy elsewhere.” Finally, under the same legislation, NIST may “compile, evaluate, publish, and
otherwise disseminate general, specific and technical data resulting from the performance of the
functions specified in this section or from other sources when such data are important to science,
engineering, or industry, or to the general public, and are not available elsewhere.”

Neither of these mandates governing NIST’s operations expressly prohibits the agency from creating
databases that might compete with the private sector. However, the mandates do imply that NIST
should make sufficient efforts not to collect data that is already available with sufficient accuracy
elsewhere. In addition, despite the fact that competition with private sector firms is not expressly
prohibited by NIST’s legislative mandate, competing with the private sector is not something that the
U.S. government generally condones. For example, OMB Circular A-76, Performance of
Commercial Activities, states that “in the process of governing, the government should not compete
with its citizens” and that “the Federal Government shall rely on commercially available sources to
provide commercial products and services.” However, as discussed in detail in the next section, there
is a significant difference of opinion among the various parties with an interest in the NIST/Coblentz
Society database as to whether NIST is in compliance with its mandate and whether it is unfairly
competing against the private sector.



                                                    7

U.S. Department of Commerce                                                           Final Report IPE-13200

Office of Inspector General                                                                    February 2001



B.	     Because the NIST/Coblentz Society database will compete with private sector
        databases, the project should be thoroughly scrutinized before proceeding

We spoke with numerous individuals, on both sides of the debate, who felt strongly that NIST either
was in clear violation of its legislative mandate or, conversely, was in full compliance with it. The
difference of opinion centered on the two key terms contained in NIST’s legislative mandate: “avoid
duplication” and “not available with sufficient accuracy elsewhere.” These terms are highly subjective
and open to interpretation, resulting in the wide differences of opinion that we encountered during our
review.

In weighing both sides of the debate, we concluded that the NIST/Coblentz Society database will
compete with the database offerings of the private sector database vendors. While it is impossible to
quantify by how much the sale of the NIST/Coblentz database will negatively affect the sales of the
private sector databases, it is clear that there will be an impact. For this reason, we believe that NIST
should scrutinize the propriety of making the database available to the public before taking any action
toward that end. We emphasize that such planning and analysis should have been done before NIST
ever entered into the CRADA.

The Standard Reference Data Act states that NIST should “avoid duplication” with the reference data
services and facilities of other federal agencies, state and local governments, persons, firms, institutions,
and associations. Generally, the four private sector database vendors interpret this mandate to mean
that NIST should not create databases that contain any of the same spectra that their databases do.
Conversely, the parties in favor of the NIST/Coblentz Society database, including NIST officials,
interpret the mandate more broadly to mean that NIST should not exactly duplicate other databases.
They recognize, however, that when NIST creates a new database, similarities in content are
unavoidable.

Similarly, NIST’s organic legislation states that the agency should only determine, compile, evaluate,
and disseminate scientific data that is “not available with sufficient accuracy elsewhere.” Private
database vendors contend that they are meeting the needs of the users of infrared spectral databases
with high quality products and that there is no need for NIST to add its database to the marketplace.
Conversely, NIST and other potential users of the NIST/Coblentz Society database that we spoke to
during our review assert that there is a need for high quality, highly evaluated infrared spectra and that
private sector database vendors are not adequately meeting that need.

Given the subjective nature of the wording in NIST’s legislative mandate, it is not surprising that there
are wide differences of opinion about whether the NIST/Coblentz Society database was an appropriate
project for NIST to engage in. The debate over NIST’s mandate, and the propriety of the creation of
the NIST/Coblentz Society database in general, really centers on three primary issues—(1) the pros

                                                      8

U.S. Department of Commerce                                                         Final Report IPE-13200

Office of Inspector General                                                                  February 2001



and cons of digitizing the Coblentz Society spectra, (2) the level of overlap between the NIST/Coblentz
Society database and commercial databases, and (3) the format of the database. In the following
sections we discuss these three issues, in considering whether the NIST/Coblentz Society database is
needed by the users of infrared spectral databases.

Pros and cons of digitizing the Coblentz Society spectra

As mentioned previously, the Coblentz Society spectra being digitized under the CRADA are from the
1950s and 1960s, and they were measured with prism and grating spectrometers, rather than the
current industry standard, the FT-IR spectrometer. There is general agreement that the original spectra
are of high quality due to the authenticity and purity of the samples used to obtain the spectra and the
expert evaluation performed by Coblentz Society members to ensure their accuracy. However, there is
disagreement about whether digitizing the spectra degrades their quality and, as a result, makes them
unusable for spectral searching.

NIST and Coblentz Society officials contend that digitizing the older spectra does not degrade their
quality. They say that the computer program used to digitize the spectra is extremely accurate.
Further, while they admit that there may be some minor issues involved in using the digitized spectra for
spectral searching, they intend to disclose those issues in the text file that will be incorporated into the
database package. NIST officials also told us that they did not undertake the digitization effort solely to
aid in spectral searching. They point out that there are other significant applications that the spectra can
be used for such as a wide variety of methods for identifying and studying compounds, addition and
subtraction of spectra to reveal additional information about a compound, and spectral simulation to
predict spectral features from a chemical structure. Therefore, NIST officials believe that it is
worthwhile to provide data from the Coblentz Society collection in digital form for those applications.

Several of the private sector database vendors expressed concern that by digitizing old data, NIST
would be misleading the users of the data. They contend that spectra measured with an FT-IR
spectrometer are vastly superior in resolution to the digitized Coblentz spectra, but that purchasers of
the NIST/Coblentz database may not be aware that they are purchasing digitized prism and grating
spectra, although they agree that NIST’s plan to notify users of the digitization will help.

The underlying concern here is that because the NIST/Coblentz Society database will likely be sold for
a far lower price than that of comparable private sector database vendors, buyers will choose the
NIST/Coblentz database over other offerings. The database vendors contend that their experience
shows that purchasers of infrared spectral databases tend to purchase based on price, not quality.
Thus, the vendors are concerned that they will lose sales. While the extend of this potential problem is




                                                     9

U.S. Department of Commerce                                                               Final Report IPE-13200

Office of Inspector General                                                                        February 2001



impossible to quantify, NIST does sell other databases, most notably its mass spectral database,3 for
less than similar private sector offerings. In the case of the mass spectral database, sales of the private
sector firm’s offering have reportedly declined over time. The firm told us that since the release of
NIST’s largest and most recent version of its mass spectral database, sales of its mass spectral
database have declined considerably. Therefore, we believe that the private sector database vendors
have a valid reason to be concerned.

Another point brought to our attention by one of the database vendors is that approximately 50 percent
of the Coblentz Society collection is made up of spectra measured on a prism spectrometer (the other
half were measured on a grating spectrometer). The resolution of reference spectra measured on a
prism spectrometer is insufficient to define all bands in the short wavelength region of the infrared
spectrum. The private sector database vendor contends that this problem means that once the spectra
are digitized and used for spectral searching, the user may have difficulty making matches during
searching. Several manufacturers of spectrometers also expressed concern that a user having problems
searching the NIST/Coblentz Society database may tend to blame the instrument, not the NIST
database, because the NIST name implies high quality. They worried that they would be faced with
dealing with a number of unhappy customers who were having difficulty searching using the
NIST/Coblentz Society database.

NIST officials to whom we spoke about this problem believe that the prism spectra can be effectively
used for searching despite the resolution problem in the short wavelength region. However, they stated
that because they did not undertake the digitization effort solely to aid in spectral searching, they had no
reason to test searching methods to ensure that they would work with the digitized Coblentz Society
spectra. Due to the technical complexity of this particular issue, we were unable to ascertain whether
spectra measured on a prism spectrometer can effectively be used in spectral searching. Regardless,
we are concerned that NIST did not do any research to determine whether this issue may be a problem
before proceeding with the project. While the database can be used for purposes other than spectral
searching, the searching function is the most widely used. Thus, we believe that NIST should have
ensured that the entire database, both the prism and grating spectra, would be usable for spectral
searching before proceeding with the project.




        3
           Mass spectrometry is concerned with the separation of matter according to atomic and molecular mass. It
is also used to identify chemical compounds, but is not considered to be as precise as infrared spectroscopy.

                                                        10

U.S. Department of Commerce                                                                 Final Report IPE-13200

Office of Inspector General                                                                          February 2001



Overlap between the NIST/Coblentz Society database and commercial databases

NIST’s legislative mandate states that the agency should not “duplicate” standard reference data that is
available from other sources. Both NIST and the private sector database vendors agreed, in
discussions with our office, that if there was a significant overlap between the Coblentz Society
collection and the databases offered by the vendors, NIST would not be in compliance with its
mandate. At our request, NIST and one of the private sector database vendors performed separate
assessments of how large the overlap might be by taking samples from their respective databases and
comparing them to the spectra contained in the other’s database. NIST concluded that there was likely
a 17-percent overlap, whereas the private sector database vendor found at least a 60-percent overlap.

There is such a wide disparity between the overlap calculations because there are different ways to
measure it. For example, a particular compound can be measured in several different solutions or
solvents, which may produce some differences in the spectra that may be of interest to a scientist.
Under its calculation method, NIST would count the same compound measured in three different
solutions as being three distinct spectra. Only if the other database contained the compound measured
in the same solution would NIST count the spectra as overlapping. NIST’s rational for its approach is
that each spectra, regardless of the solution it is measured in, is unique and as such, has value as a
reference spectra. Conversely, the private sector firm would count any of the three spectra, regardless
of the solution they are measured in, as overlapping if the same spectrum was found in the other
database. The private sector firm’s rationale for its approach is that, regardless of the solution they are
measured in, the spectra are nearly identical.4 Thus, in spectral searching, a compound measured in
one solution would be accurately matched with the same compound measured in another solution.

There are also other reasons for the disparity in the overlap, including the fact that NIST only used a
portion of the private sector database (approximately 75,000 out of 200,000 spectra) to compare
against the NIST/Coblentz Society database. The private sector firm was unwilling to provide NIST
with the remainder of the database because the firm’s policy is not to give its databases to a competitor,
which is what it now considers NIST to be.

Regardless of the actual level of overlap between the NIST/Coblentz Society database and private
sector infrared spectral databases, we are troubled by the fact that NIST made no attempt to assess the
extent of overlap before proceeding with the project. This should have been an important item to


         4
           There are some compounds that should not be measured in some solutions because the solutions
radically alter the spectra. We are presuming that the Coblentz Society collection and the private sector databases
do not contain any spectra that were measured in solutions that would dramatically change them.

                                                         11
U.S. Department of Commerce                                                             Final Report IPE-13200

Office of Inspector General                                                                      February 2001



check to ensure that the project was in compliance with the two key terms in NIST’s mandate—to
“avoid duplication” and to ensure that the spectra were “not available with sufficient accuracy
elsewhere.”

Format of the database

Private sector database vendors currently sell their databases along with proprietary software packages
to search and view the spectra contained in the database. Users are able to search and match spectra,
as well as view those spectra on the screen, but they are unable to access the underlying computer file
containing the data that makes up the spectra. The vendors do not want to release their underlying data
files, primarily because they would be very easy to copy and, thus, steal. However, private sector
database vendors told us that on the few occasions a user has requested the underlying data files, they
have obliged and have provided it for a small fee under a contract that stipulates that the user may not
copy or transfer the files to another party.

NIST officials and several other researchers and users of infrared spectral databases that we spoke
with contend that it is very important to provide unrestricted access to the underlying data. As a result,
NIST intends to release the NIST/Coblentz Society database in the JCAMP-DX format,5 which allows
a user to view and manipulate the underlying information contained in an infrared spectrum. According
to NIST officials, the benefits of having the database in the JCAMP-DX format are that (1) the raw
spectral data can be fully utilized by software and data systems developed by any party, thus not tying
the user to the proprietary system of the database vendor, and (2) users can freely decide for
themselves exactly how they wish to process and examine the data. NIST contends that full availability
of the basic data is a key to the development of science and technology in many fields and that
enhancing the availability of such data is at the core of its mission and the Standard Reference Data Act.

We agree with NIST’s position that, if the agency is going to produce and make standard reference
data available, it should be in a format that can be most widely used. However, before proceeding with
the project, NIST did not determine whether the databases currently available from private sector firms
are or could be made available in the JCAMP-DX or other open format. In fact, the smallest of the
private sector database firms does release its data in the JCAMP-DX format. And, as stated
previously, at least one of the database firms has made the underlying data files available for a nominal
fee under a contract.



        5
            Joint Committee on Atomic and Molecular Physical Data Exchange Standards.



                                                       12
U.S. Department of Commerce                                                               Final Report IPE-13200

Office of Inspector General                                                                        February 2001



Conclusions

Based on our assessment of the above issues, including extensive discussions with all interested parties,
we believe that if NIST decides to release the NIST/Coblentz Society database to the public, it will
compete with the database offerings of the private sector database vendors. It is important to note that
we define competition strictly as the actual and potential rival offerings and substitutes that buyers of
infrared spectral databases might consider. Or, put another way, competitors are entities that can
satisfy the same customer need. Clearly both NIST, in its capacity as a database vendor, and the
private sector database firms meet most of the same customer needs for infrared spectral databases.

In our discussions with buyers and users of infrared spectral databases, we were told that they would
likely purchase the NIST/Coblentz Society database for two primary reasons—the database’s high
quality in terms of critical evaluation and its low price. However, most users stated that they would also
continue to purchase one of the databases offered by the private sector database vendors. Because the
NIST/Coblentz Society database will initially contain only 10,000 condensed phase spectra,6 the
database will need to be supplemented with one or more of the private sector database offerings, some
of which contain well over 100,000 spectra. It is impossible to quantify how much sales of the private
sector databases will be affected by the sale of the NIST/Coblentz Society database. It is clear,
however, that there will be an impact, and it will likely be more of an impact on the smaller vendors than
the larger ones. While NIST officials recognize that there may be some impact on the database
vendors’ sales, they stated that the database vendors are eligible to become licensed distributors for all
of NIST’s databases, including the NIST/Coblentz Society database. As licensed distributors, the
vendors would be able to sell NIST’s databases at a profit.

Given the fact that the NIST/Coblentz Society database will compete with the database offerings of the
private sector database vendors, we believe that it is prudent for NIST to proceed cautiously. While
recognizing that NIST’s mandate does not specifically preclude competition with the private sector, it is
important to emphasize that OMB Circular A-76 states “the government should not compete with its
citizens,” and if NIST chooses to publish and sell the NIST/Coblentz Society database, it could well be
in violation of this directive. Therefore, we believe that NIST should thoroughly scrutinize the propriety
of making the NIST/Coblentz Society database available to the public before taking any action toward
that end. Specifically, NIST should perform the analysis that it should have performed before entering


        6
          There will also be 10,000 gas phase spectra in the NIST/Coblentz Society database. However, according
to database users and sellers alike, condensed phase spectra are much more widely used, and their presence in the
database would be the primary reason to purchase it.

                                                        13
U.S. Department of Commerce                                                       Final Report IPE-13200

Office of Inspector General                                                                February 2001



into the CRADA. This would first include reviewing whether the prism spectra in the database are
suitable for spectral searching. If the prism spectra cannot be used for spectral searching, NIST should
notify potential users of this fact before they purchase the database. Second, NIST should determine
what the level of overlap is between the NIST/Coblentz Society database and commercial databases
and whether the level of overlap is sufficiently low to justify making the NIST/Coblentz Society
database available in the marketplace. We recognize that NIST will require the cooperation of the
private sector database vendors to meet this recommendation. We urge NIST to work with the
database vendors to obtain copies of their databases or otherwise determine the most accurate level of
overlap before proceeding any further with this project.



The Acting NIST Director’s written response to our draft report stated that NIST accepts this
recommendation and, based on currently available information, believes that the NIST/Coblentz
Society database should be made available to the public. Specifically, the agency has determined that
prism data are quite suitable for searching, but will prepare a technical note providing detailed
instructions on the use of the database for spectral searching. In addition, as stated above, NIST’s
analysis shows that 17-percent of the compounds (in the same physical state) in the NIST/Coblentz
Society database are found in the largest commercially available database. NIST will request access to
other commercial databases to carry out similar analyses. We urge NIST to ensure that it has
sufficiently addressed these issues before proceeding.

C.	     Substantial future additions to the database, and future database projects, should be
        well publicized and analyzed

NIST and the Coblentz Society’s intention is to add spectra, over time, to the their database. As
discussed previously, because of the current size of the NIST/Coblentz Society database, users may
still purchase one or more of the private sector databases to supplement the spectra found in the
NIST/Coblentz Society database. However, if the NIST/Coblentz Society database grows,
competition between NIST and the private sector database firms will become more pronounced.
Users may eventually be able to just purchase an expanded NIST/Coblentz Society database, thus
seriously reducing the market or sales for the private firms’ databases. Therefore, if NIST does
determine it is appropriate to proceed with the initial offering of 20,000 spectra in the NIST/Coblentz
Society database, it must also be judicious in how and when it makes additions to the database. To
that end, additions to the database should be well publicized and scrutinized by NIST before
proceeding. In addition, NIST should submit such a project expansion, as well as any future database
projects of this nature, to a peer review.

As discussed in the previous section, NIST performed no analysis before entering into the CRADA.
For example, no peer review of the scientific and commercial merits and/or drawbacks of the project


                                                   14

U.S. Department of Commerce                                                          Final Report IPE-13200

Office of Inspector General                                                                   February 2001



was done, and NIST’s intention to enter into the CRADA was not publicly announced, thus denying
interested parties an opportunity to comment. Because no analysis was done, several issues, such as
the overlap issue, have not been adequately addressed. Yet, the project is nearly complete, and NIST
and the Coblentz Society have both invested a great deal of time and, in NIST’s case, funding in the
project. While this lack of analysis is unsatisfactory from a management perspective, such analysis is
not currently required by NIST. NIST has no policies and procedures for evaluating whether it should
undertake such a project that may compete with the private sector. At a minimum, it should have an
internal review process that considers that issue as well as the relative merits of different potential uses
of NIST’s resources.

While NIST may not have been in violation of its own policies and procedures when it entered into the
CRADA with the Coblentz Society without doing sufficient analysis, it was in violation of OMB
Circular A-130, Management of Federal Information Resources, which states that “agencies shall
plan in an integrated manner for managing information throughout its life cycle.” It further states that
agencies shall “consider the effects of their actions on members of the public and ensure consultation
with the public as appropriate” and “seek to satisfy new information needs through interagency or
intergovernmental sharing of information, or through commercial sources, where appropriate, before
creating or collecting new information.” In addition, the circular states that "...improvements to existing
information systems and the development of planned information systems” should not “duplicate
information systems available within the same agency, from other agencies, or from the private sector."

Finally, OMB Circular A-130 requires that agencies develop internal agency information policies to
conform to the circular. The Department of Commerce’s information technology policies are contained
in the Commerce Information Technology Management Handbook. The handbook requires that
Commerce’s operating units seeking to acquire information technology resources conduct a
requirements analysis, which is to include an analysis of the available alternatives. The handbook
encourages operating units to rely on the private sector, where appropriate, to provide information
technology resources.

According to the Department’s Office of the Chief Information Officer, the policies of Circular A-130
and the Information Technology Management Handbook clearly apply to NIST’s requirement for an
infrared spectral database. A requirements analysis should have been prepared addressing all the
available alternatives, including whether the need could have been met through the use of existing
databases from the private sector database firms. The threshold for departmental review and approval
of NIST’s information technology requirements is $500,000. Below this threshold, NIST is not
required to get departmental approval, but the agency is still required to document the requirement.
NIST did not meet this requirement.


                                                     15

U.S. Department of Commerce                                                         Final Report IPE-13200

Office of Inspector General                                                                  February 2001




NIST’s lack of planning and analysis should not continue with any future additions to the
NIST/Coblentz Society database, nor with any future database projects of this nature. More
specifically, NIST should not proceed with any expansion of the database without carefully evaluating
the merits and consequences of any future additions to the database. It is even more important that this
evaluation be done on future additions because, as the database grows, it represents greater
competition with the databases offered by the private sector database firms. Therefore, we believe that
for any substantial future additions to the NIST/Coblentz Society database, as well as any future
database projects of this nature, NIST should develop policies and procedures to ensure that it will (1)
publicize the proposed project in the Federal Register, (2) solicit comments from interested parties,
such as cognizant scientists and database vendors, and consider those comments when deciding
whether to proceed, (3) analyze the need for the additions and/or a new database in the scientific
community and the impact of the proposed project on the private sector firms, particularly with regard
to competition, and (4) submit proposed projects to a peer review, and (5) conduct a requirements
analysis, as required by the Commerce Information Technology Management Handbook.



In responding to our draft report, the Acting NIST Director stated that the agency accepts our
recommendation. We are encouraged that NIST has agreed to place a notice of its proposed projects
in the Federal Register. However, we are concerned by the agency’s comment that items (2) and (3)
are part of NIST’s normal procedure for project evaluation and selection. While NIST officials told us
during our review that they had discussed the proposed database with experts in the field of infrared
spectroscopy, such consultations were not held with the database vendors. In addition, NIST did not
perform any sort of analysis to assess the impact of the NIST/Coblentz Society database on private
sector firms, particularly with regard to competition. As stated on page 15, NIST does not have any
policies and procedures for evaluating whether it should undertake such a project that may compete
with the private sector. Therefore, we question whether items (2) and (3) are always part of NIST’s
normal procedures for evaluating and selecting database projects. We request that NIST, in its action
plan, clearly set forth what policies and procedures it intends to put in place to fully meet the intent of
our recommendation.

In its response, the agency also stated that it views peer review as expert peers participating in
workshops and other meetings organized to develop technical plans. However, in our
recommendation, we use the term to mean that proposed projects are evaluated by a team of qualified
independent reviewers, using established criteria, to determine the merits and drawbacks of projects.
After its review, the peer review team would make recommendations to NIST management as to
whether the projects should proceed. In its action plan, we request that NIST further explain what

                                                    16

U.S. Department of Commerce                                                        Final Report IPE-13200

Office of Inspector General                                                                 February 2001



specific policies and procedures it intends to put in place to ensure that its peer review of proposed
additions to the NIST/Coblentz Society database and future proposed database projects meets the
intent of our recommendation.

Finally, we ask that NIST clarify its comment that by responding to our recommendations, it “will also
fulfill the policy objectives of the Department of Commerce set out by the Commerce Information
Technology Management Handbook.” We are reaffirming our recommendation that NIST’s policies
and procedures for assessing any additions to the NIST/Coblentz Society database, as well as similar
database projects, stipulate that a requirements analysis be performed, not just that the policy
objectives of the Department are met. Therefore, we request that NIST clarify, in its action plan,
whether or not it intends to perform the requirements analysis as is required by the handbook.




                                                    17

U.S. Department of Commerce                                                               Final Report IPE-13200

Office of Inspector General                                                                        February 2001



II. 	   A CRADA Was Not the Appropriate Instrument for the NIST/Coblentz Society
        Project

For the CRADA between NIST and the Coblentz Society, we found that the key criterion for entering
into a CRADA was not met. Specifically, CRADAs are designed to allow federal laboratories to work
with nonfederal entities to transfer technologies for future commercial application. However, no
technology transfer is taking place on this project. The Coblentz Society provided its paper spectra to
NIST, and NIST contracted with a research scientist to digitize those spectra. Representatives of the
Coblentz Society are not learning how to use the spectra scanning and conversion program, nor is
NIST transferring the program to the Coblentz Society for its use in commercial applications.

Also, the use of a contractor to digitize the Coblentz Society spectra does not conform to NIST policy.
According to NIST’s Administrative Manual, specifically the section covering CRADAs, non-NIST
employees are not to participate in CRADAs unless an exception is authorized in writing by the
appropriate official. This policy is in place mainly to protect NIST and the CRADA partner from
problems in invention rights and protection of proprietary information. For this CRADA, no exception
was authorized in writing. In addition, the CRADA did not contain the required “Disclosure of
Proprietary Information” clause giving NIST consent to release the Coblentz Society’s spectra to the
contractor for the purposes of carrying out the CRADA. However, because the appropriate “rights
and data clause”7 was contained in the contract with the research scientist, there was no negative
impact resulting from the violation of the policy.

Instead of using a CRADA, a more appropriate instrument for this project would have been an
agreement similar to those used for other database projects under the Standard Reference Data
Program. Both the Director of that program and NIST’s Deputy Chief Counsel agreed that a CRADA
was not the right instrument for this project. These NIST officials stated that using another type of legal
agreement would have permitted the use of a contractor without having to obtain written authorization
from the CRADA partner. We believe that it is a good management practice to use the most
appropriate instrument for a particular project. Therefore, we believe that for its future database
collaborations with outside entities, NIST should carefully assess its options to ensure that it selects the
most appropriate instrument for the project.



The Acting NIST Director’s written response to our draft report stated that NIST accepts our
recommendation and that although a CRADA was legally permissible, in hindsight it was not the most
appropriate instrument for the project.


        7
          Federal Acquisition Regulation (48 CFR Chapter 1) clause 52.227-14 “Rights in Data–General” (June 1987.)
This clause allocates to the government unlimited rights to all data created under the contract.

                                                        18
U.S. Department of Commerce                                                        Final Report IPE-13200

Office of Inspector General                                                                 February 2001



                                     RECOMMENDATIONS


We recommend that the Director, National Institute of Standards and Technology, direct appropriate
officials to take the following actions:

1.     Determine whether the NIST/Coblentz Society database should be made available to the
       public. The decision-making process should, at a minimum, include an analysis to determine:
       C       whether the prism spectra in the database are suitable for spectral searching. If the
               prism spectra cannot be used for searching, NIST should notify potential users of this
               fact before they purchase the database; and
       C	      what the level of overlap is between the NIST/Coblentz Society database and
               commercial databases, and whether the level of overlap is sufficiently low to justify
               making the NIST/Coblentz Society database available in the marketplace. NIST
               should work closely with the database vendors to obtain copies of their databases or
               otherwise determine the most accurate level of overlap (see page 13).

2.     For any substantial future additions to the NIST/Coblentz Society database, as well as any
       future database projects of this nature, develop policies and procedures to ensure that:
       C       proposed projects are publicized in the Federal Register,
       C       comments are solicited from interested parties, such as cognizant scientists and
               database vendors, and those comments are considered when deciding whether to
               proceed,
       C       the need for the additions and/or a new database in the scientific community is analyzed
               and the impact of the additions on private sector firms is considered, particularly with
               regard to competition,
       C       proposed projects are submitted to a peer review, and
       C       a requirements analysis is conducted, as required by the Commerce Information
               Technology Management Handbook (see page 16, 17).

3.	    For future database collaborations between NIST and outside entities, carefully assess
       available options to ensure that the most appropriate legal instrument is selected for the project
       (see page 18).




                                                   19

U.S. Department of Commerce                                   Final Report IPE-13200

Office of Inspector General                                            February 2001



                                      APPENDIX

                              NIST Response to Draft Report




                                           20

U.S. Department of Commerce         Final Report IPE-13200

Office of Inspector General                  February 2001





                              21

U.S. Department of Commerce         Final Report IPE-13200

Office of Inspector General                  February 2001





                              22

